HHS/OIG, Audit - "Review of Personal Care Services Claimed by The Center for Living and Working, Inc.,," (A-01-06-00011)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Personal Care
Services Claimed by The Center for Living and Working, Inc.," (A-01-06-00011)
October 12, 2007
Complete Text of Report is available in PDF format (786 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Center for
Living and Working, Inc., (the Center) claimed personal care services in
accordance with Medicaid rules and regulations.  The Center did not always claim
personal care services in accordance with Medicaid rules and regulations from
October 2003 through September 2005.  From our sample of reimbursed claims for
100 beneficiary payment years, we found errors totaling $20,552 ($10,704 Federal
share) for services that were provided by personal-care attendants on dates when
the beneficiaries were hospital inpatients and for
services that were either insufficiently documented or unauthorized.  Based on
the sample results, we estimate that the Center received overpayments of
$493,777 ($256,366 Federal share).
We recommended that the Center refund to the State agency
$493,777 ($256,366 Federal share) and strengthen procedures to ensure that it
claims personal care services in accordance with Medicaid rules and
regulations.  The Center disagreed in part with our findings and
recommendations.